OIG Investigative Reports, Boston, MA 03//24/2010- Vocational School Employee Sentenced for False Statements
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney Carmen M. Ortiz District of Massachusetts
FOR IMMEDIATE RELEASE WEDNESDAY, MARCH 24, 2010 WWW.USDOJ.GOV/USAO/MA
CONTACT: CHRISTINA DiIORIO-STERLING PHONE: (617) 748-3356 E-MAIL: USAMA.MEDIA@USDOJ.GOV
VOCATIONAL SCHOOL EMPLOYEE SENTENCED FOR FALSE STATEMENTS
BOSTON, MA - A Bradford, Massachusetts man was sentenced after having previously pled guilty to making false statements to the federal government.
United States Attorney Carmen M. Ortiz, Brian M. Hickey, Special Agent in Charge of the U.S. Department of Education's Office of Inspector General and Gregory W. Sullivan, Inspector General of the Massachusetts Department of Education, announced that JOSEPH GIORDANO, age 63, of Bradford, MA, was sentenced to three years of probation, and ordered to pay a $10,000 fine and $15,049 in restitution to the U.S. Department of Education after pleading guilty to one count of making a false statement. GIORDANO used his position at Whittier Regional Vocational-Technical School to obtain funds provided to the school under federal grants. GIORDANO did this by creating a company, MDG Education, which invoiced Whittier for services relating to faculty enrichment courses. MDG was not a Whittier-approved vendor. The services supposedly provided by MDG were services that  GIORDANO  typically performed in the course of his usual duties for Whittier. GIORDANO, through MDG, billed Whittier at a higher rate than Whittier would have paid for faculty enrichment courses had there been no MDG involvement.
The case was investigated by the U.S. Department of Education and Massachusetts Department of Education. It was prosecuted by Assistant U.S. Attorney Thomas E. Kanwit of Ortiz's Major Crimes Unit.
###
Printable view
Last Modified: 04/05/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov